@QCKLE

Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No.
JOSHUA COLEMAN,
Petitioner,
vs.
STATE OF LOUISIANA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 5147 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of January, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

    

 

GENERAL NOTARY-State of Habraska A Chk,
i, RENEE J. GOSS 9. .
My Comm. Exp. September 5, 2023

Affiant 40526

    

Notary Public
